/

/ y
No.

IN THE
SUPREME COURT OF THE UNITED STATES

TRAVON JARVEL JACKSON, PETITIONER,
vs.
UNITED STATES, RESPONDENT.
CERTIFICATE OF SERVICE
I, Carlton F. Gunn, hereby certify that on this Z-lJl day of July, 2020, a
copy of the Petitioner’s Motion for Leave to Proceed in Forma Pauperis and
Petition for Writ of Certiorari to the United States Court of Appeals for the
Ninth Circuit was served on the Solicitor General of the United States, by
electronic mail, at supremectbriefs@usdoj.gov, as consented to by the Solicitor
General’s office and authorized by this Court’s order issued April 15, 2020 in
light of the ongoing public health concerns relating to COVID-19.
Respectfully submitted,
July 2^2020
CARLTON F. GUNN
Attorney at Law

